TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Modernized e-File Project Can Improve
                      Its Management of Requirements



                                            July 9, 2007

                              Reference Number: 2007-20-099




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   July 9, 2007


 MEMORANDUM FOR CHIEF INFORMATION OFFICER



 FROM:                    (for) Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – The Modernized e-File Project Can Improve Its
                                Management of Requirements (Audit # 200720002)

 This report presents the results of our review of the Modernized e-File Project (hereafter referred
 to as the Project).1 The overall objectives of this review were to assess the accuracy and
 completeness of data processed by the Modernized e-File system and to review project
 development practices to ensure the Project is providing the intended benefits to the Internal
 Revenue Service (IRS) and taxpayers. This review was part of our Fiscal Year 2006 audit plan
 for reviews of the IRS’ Business Systems Modernization efforts.

 Impact on the Taxpayer
 The Project’s goal is to replace the IRS’ current tax return filing technology with a modernized,
 Internet-based electronic filing platform. The Project’s management of requirements
 development and testing activities can be improved to assure the requirements expected and
 approved to be deployed are the requirements that are actually deployed. Providing the planned
 requirements will help to streamline filing processes and reduce the costs associated with the
 paper-based IRS.

 Synopsis
 The Modernized Tax Return Database is the legal repository for original electronically filed
 returns received by the IRS through the Modernized e-File system. This repository allows for


 1
     See Appendix VIII for a Glossary of Terms.
                               The Modernized e-File Project Can Improve Its
                                      Management of Requirements



more efficient processing and analysis and ensures the availability of data for multiple inquiries
about tax return information by the IRS.
We analyzed tax returns electronically filed using the Modernized e-File system from
July 1 through September 31, 2006, and found the information received through the system and
stored in the Modernized Tax Return Database properly matched the information stored in the
IRS Business Master File for 98 percent of the 128,290 returns filed. Approximately 2 percent
(2,724) of the returns filed during this period showed different tax return information on the
Business Master File. We determined the return information had been changed by other IRS
processing functions (e.g., the Error Resolution System, the Generalized Unpostable
Framework). Changes are made by these functions when they determine the tax returns contain
errors and omissions of required information, such as taxpayer filing status or mathematical
calculations.
In addition, the Modernized e-File system experienced problems in its ability to handle the
number of returns filed during the March 2006 peak tax return filing period. Subsequently, the
Project team developed lessons learned to address these problems and to prevent similar
occurrences in the September 2006 peak filing period and future filing periods. Our review of
the status and actions taken on 51 of the lessons learned found that adequate actions were
planned or taken to address these items.
However, additional actions are needed to adequately complete requirements traceability for the
Project. The Enterprise Life Cycle2 directs project teams to verify that the contractor is
maintaining the traceability of project requirements for applications developed throughout the
project life cycle, including ensuring each requirement is mapped to its higher level requirement.
The Software Engineering Institute’s Capability Maturity Model Integration provides that a
project should maintain bidirectional traceability between source requirements and all product
requirements.
In a previous report,3 we recommended requirements be traced between the System
Requirements Report and the requirements traceability verification matrices to ensure project
teams follow the Enterprise Life Cycle provisions for managing requirements. The IRS’
corrective action provided that tracing of the requirements would be completed starting with
Release 4 of the Project. In March 2006, the Chief Information Officer closed the corrective
action by adding columns to the System Requirements Report to link the Report’s requirements
to the requirements traceability verification matrices for Release 4.




2
 Appendix V presents an overview of the Enterprise Life Cycle.
3
 Controls Need to Be Strengthened to Ensure the Modernized e-File Project Meets Its Expectations (Reference
Number 2005-20-103, dated September 2005).
                                                                                                              2
                           The Modernized e-File Project Can Improve Its
                                  Management of Requirements



During this review, the Project team took steps to improve        A System Requirements Report
bidirectional traceability by performing further requirements     is the primary reference for all
tracing between the System Requirements Report and the            project requirements needed to
Release 4 requirements traceability verification matrices.             complete design and
However, the Release 4 requirements traceability                    development of a business
                                                                              system.
verification matrices did not provide complete bidirectional
traceability.

Recommendations
To complete the previous corrective action, the Chief Information Officer should ensure the
Modernized e-File System Requirements Report and Release 4 requirements traceability
verification matrices are updated to include traceability to valid requirement identification
numbers. Further, the Chief Information Officer should ensure the detailed guidance currently
being developed by the IRS Business Rules and Requirements Management office includes
specifics about how projects should maintain and report bidirectional traceability, to ensure
traceability is complete and consistent for all projects.

Response
The Chief Information Officer agreed with the recommendations and plans for the IRS to
complete the traceability of the requirements for Releases 4 and 5 using the System
Requirements Report manual process that is currently in place. Full bidirectional traceability
will not be possible until the Project is able to consolidate all requirements, change requests,
work requests, test cases, and defects into one related system. For Release 6, the Project team is
working with the Business Rules and Requirements Management office to implement a full
bidirectional traceability model. Further, the Business Rules and Requirements Management
office will review its guidance to ensure proper information is included to help projects
understand how to perform bidirectional traceability. Management’s complete response to the
draft report is included as Appendix IX.

Office of Audit Comment
As stated above and in our September 2005 report, bidirectional traceability is an Enterprise Life
Cycle requirement. We identified noncompliance with this requirement in the development of
Release 3.2, and the IRS’ planned corrective action was to implement this control for Release 4
and subsequent releases. The IRS now indicates that full bidirectional traceability will not be
possible until the Project is able to consolidate all requirements, change requests, work requests,
test cases, and defects into one related system. During our review, we were able to perform
bidirectional traceability through the manual processes used by the Project team. Delaying

                                                                                                     3
                           The Modernized e-File Project Can Improve Its
                                  Management of Requirements



implementation of bidirectional traceability until 2009 increases the risk that requirements may
not be properly developed, tested, and deployed. Therefore, we continue to believe the IRS
could implement bidirectional traceability using existing manual processes.
Copies of this report are also being sent to the managers affected by the report recommendations.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
Inspector General for Audit (Information Systems Programs), at (202) 622-8510.




                                                                                                   4
                                    The Modernized e-File Project Can Improve Its
                                           Management of Requirements




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          The Modernized e-File System Provides Appropriate Tax Return
          Information for the Internal Revenue Service’s Processing Operations.......Page 2
          Additional Actions Should Be Taken to Adequately Complete
          Requirements Traceability for the Project ....................................................Page 3
                    Recommendation 1:..........................................................Page 4

                    Recommendation 2:..........................................................Page 5


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Modernized e-File System Release 4 Requirements
          Not Included In Testing Documentation.......................................................Page 10
          Appendix V – Enterprise Life Cycle Overview............................................Page 12
          Appendix VI – Memorandum #1: Additional Actions Should Be
          Taken to Adequately Complete Requirements Traceability for the
          Modernized e-File Project.............................................................................Page 16
          Appendix VII – Management’s Response to Memorandum #1 ...................Page 19
          Appendix VIII – Glossary of Terms .............................................................Page 20
          Appendix IX – Management’s Response to the Draft Report ......................Page 24
               The Modernized e-File Project Can Improve Its
                      Management of Requirements




                      Abbreviations

IRS             Internal Revenue Service
MeF; Project    Modernized e-File Project
                                The Modernized e-File Project Can Improve Its
                                       Management of Requirements




                                             Background

The Modernized e-File Project’s (hereafter referred to as
the Project)1 goal is to replace the Internal Revenue                  Development of the
Service’s (IRS) current tax return filing technology with a      Modernized e-File system aims
modernized, Internet-based electronic filing platform.          to increase electronic tax return
Providing this capability for filing 330 tax forms through       filing through a system that is
the Modernized e-File system supports and facilitates the         efficient and easy to access,
                                                                        use, and maintain.
IRS’ commitment to achieve the IRS Restructuring and
Reform Act of 19982 goal of receiving at least 80 percent
of all tax returns in electronic form. This Project also
serves to streamline filing processes and reduce the costs associated with the paper-based IRS.
The IRS has completed a total of five Modernized e-File system releases and subreleases. These
releases developed the infrastructure, application base, and support for forms filed by
corporations and exempt organizations. In February 2004, the IRS deployed the initial
Modernized e-File system release, which provides an option for Internet-based filing of the U.S.
Corporation Income Tax Return (Form 1120), the U.S. Income Tax Return for an S Corporation
(Form 1120S), and the Return of Organization Exempt From Income Tax (Form 990).
Subsequently, the Modernized e-File system added forms associated with corporations, the
public disclosure capabilities required by the Tax Exempt and Government Entities Division, and
the ability to file extensions for Forms 1120 and 1120S. The Modernized e-File system also
developed the Federal/State Single Point Filing System platform and the Federal/State
components for Forms 1120 and 990. Release 4 went into production in January 2007 and added
the U.S. Return of Partnership Income (Form 1065) and the U.S. Return of Income for Electing
Large Partnerships (Form 1065-B) as well as Federal/State Single Point Filing System access for
partnership returns.
This review was performed at the Modernization and Information Technology Services
organization’s facilities in New Carrollton, Maryland, and in the Laguna Niguel, California,
office of the Treasury Inspector General for Tax Administration during the period October 2006
through March 2007. The audit was conducted in accordance with Government Auditing
Standards. Detailed information on our audit objectives, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.



1
 See Appendix VIII for a Glossary of Terms.
2
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                             Page 1
                           The Modernized e-File Project Can Improve Its
                                  Management of Requirements




                                Results of Review

The Modernized e-File System Provides Appropriate Tax Return
Information for the Internal Revenue Service’s Processing Operations

The Modernized Tax Return Database is the legal
repository for original electronically filed returns      The Modernized e-File system
received by the IRS through the Modernized e-File       supplies tax return information to
system. This repository allows for more efficient           IRS systems, such as the
processing and analysis and ensures the availability    Business Master File, to process
of data for multiple inquiries about tax return                taxpayer accounts.
information by the IRS.
We analyzed tax returns electronically filed using the Modernized e-File system from July 1
through September 31, 2006, and found the information received through the system and stored
in the Modernized Tax Return Database properly matched the information stored in the IRS
Business Master File for 98 percent of the 128,290 returns filed. Approximately 2 percent
(2,724) of the returns filed during this period showed different tax return information on the
Business Master File. Our review of a sample of 113 of the 2,724 tax returns with differences
showed the return information had been changed by other IRS processing functions (e.g., the
Error Resolution System, the Generalized Unpostable Framework). Changes are made by these
functions when they determine the tax returns contain errors and omissions of required
information, such as taxpayer filing status or mathematical calculations. We provided this
information to the Treasury Inspector General for Tax Administration Small Business and
Corporate Programs audit staff for use in future submission processing audits.
In addition, the Modernized e-File system experienced problems in its ability to handle the
number of returns filed during the March 2006 peak tax return filing period. Subsequently, the
Project team developed 88 lessons learned to address these problems and to prevent similar
occurrences in the September 2006 peak filing period and future filing periods. Our review of
the status and actions taken on the lessons learned as documented in the “Modernized e-File
March 2006 Peak Lessons Learned” spreadsheet showed the Project team contracted for reviews
of the application programming for 28 of the lessons learned; the team plans to implement the
recommendations from these reviews by July 2008. Our review of 23 other lessons learned, for
which the Project team initially planned to implement corrective actions by the end of
January 2007, found that adequate actions were planned or taken to address these items. We did
not review the remaining 37 lessons learned because planned corrective actions had not yet been
established or were scheduled for implementation in future Modernized e-File system releases.
                                                                                             Page 2
                               The Modernized e-File Project Can Improve Its
                                      Management of Requirements



The IRS advised us the actions taken from the March 2006 lessons learned have helped in the
deployment of subsequent Modernized e-File system releases.

Additional Actions Should Be Taken to Adequately Complete
Requirements Traceability for the Project
A System Requirements Report documents a feasible,
quantified, verifiable set of requirements that define and
                                                                       A System Requirements Report
scope the business system being developed by a project.
                                                                       is the primary reference for all
These requirements form the basis for the business                     project requirements needed to
system design, development, integration, and                                complete design and
deployment.                                                              development of a business
                                                                                   system.
The requirements traceability verification matrix
captures all business system requirements and their
bidirectional traceability. Also, it provides the project team with a status of how each
requirement is being satisfied as it gets designed and implemented, as well as how the test
components are developed, to verify the successful operation of each requirement.
The Software Engineering Institute’s Capability Maturity Model Integration provides that a
project should maintain bidirectional traceability between source requirements and all product
requirements. The Enterprise Life Cycle3 directs project teams to verify that the contractor is
maintaining the traceability of project requirements for applications developed throughout the
project life cycle, including ensuring each requirement is mapped to its higher level requirement.
In a previous report,4 we recommended requirements be traced between the System
Requirements Report and the requirements traceability verification matrices to ensure project
teams follow the Enterprise Life Cycle provisions for managing requirements. The IRS’
corrective action provided that tracing of the requirements would be completed starting with
Release 4 of the Project. In March 2006, the Chief Information Officer closed the corrective
action by adding columns to the System Requirements Report form to link the Report’s
requirements to the requirements traceability verification matrices for Release 4.
During this review, we determined the additional columns in the System Requirements Report
and requirements traceability verification matrices did not provide complete bidirectional
traceability because the requirements were not always properly traced. On November 22, 2006,
we issued a memorandum5 to the Chief Information Officer because the IRS incorrectly reported



3
  Appendix V presents an overview of the Enterprise Life Cycle.
4
  Controls Need to Be Strengthened to Ensure the Modernized e-File Project Meets Its Expectations (Reference
Number 2005-20-103, dated September 2005).
5
  See Appendix VI.
                                                                                                         Page 3
                             The Modernized e-File Project Can Improve Its
                                    Management of Requirements



it had completed the corrective action for tracing the Release 4 requirements. On
December 4, 2006, the Project team responded that it concurred with the memorandum.6
In January and February 2007, the Project team provided updated versions of these documents.
The Project team took steps to improve the bidirectional traceability of requirements by
performing further requirements tracing between the System Requirements Report and the
Release 4 requirements traceability verification matrices. However, these updated versions still
did not provide complete bidirectional traceability.
This traceability of requirements should be completed prior to the beginning of testing.
Complete tracing of the requirements provides some assurance that critical capabilities and
requirements will be tested before deployment. System Integration and Testing for
Release 4 began in July 2006; however, based on our review of the requirements documents,
bidirectional traceability was still not completed as of February 2007. Appendix IV presents an
analysis of Release 4 requirements not included in testing documentation.
When we discussed the absence of traceability with Project team members, they advised us the
requirements were not adequately traced because:
      y   The requirements were tested during development of a previous release.
      y   The requirements were deferred from Release 3.2, so they were not part of the Release 4
          set of requirements needing testing.
The Project team did not complete bidirectional traceability of the Release 4 requirements
because they did not have adequate guidance about how to complete the tracing. Without
complete bidirectional traceability, it is difficult for the IRS to assess the adequacy of
requirements development and testing activities. In addition, there is no assurance the
requirements expected and approved to be deployed are the requirements that are actually
deployed.

Recommendations
Recommendation 1: To complete the previous corrective action, the Chief Information
Officer should ensure the Modernized e-File System Requirements Report and Release 4
requirements traceability verification matrices are updated to include traceability to valid
requirement numbers, to meet the Enterprise Life Cycle provisions for managing requirements.
This control will provide assurance about the development of all approved requirements.
          Management’s Response: The Chief Information Officer agreed with this
          recommendation and plans for the IRS to complete the traceability of the requirements
          for Releases 4 and 5 using the System Requirements Report manual process that is


6
    See Appendix VII.
                                                                                             Page 4
                               The Modernized e-File Project Can Improve Its
                                      Management of Requirements



        currently in place. Full bidirectional traceability will not be possible until the Project is
        able to consolidate all requirements, change requests, work requests, test cases, and
        defects into one related system. For Release 6, the Project team is working with the
        Business Rules and Requirements Management office to implement a full bidirectional
        traceability model. The Project’s use of the Business Rules and Requirements
        Management office is consistent with the Government Accountability Office’s 2006
        recommendations related to strengthening requirements standards.
        Office of Audit Comment: As stated above and in our September 2005 report,
        bidirectional traceability is an Enterprise Life Cycle requirement. We identified
        noncompliance with this requirement in the development of Release 3.2, and the IRS’
        planned corrective action was to implement this control for Release 4 and subsequent
        releases. The IRS now indicates that full bidirectional traceability will not be possible
        until the Project is able to consolidate all requirements, change requests, work requests,
        test cases, and defects into one related system. During our review, we were able to
        perform bidirectional traceability through the manual processes used by the Project team.
        Delaying implementation of bidirectional traceability until 2009 increases the risk that
        requirements may not being properly developed, tested, and deployed. Therefore, we
        continue to believe the IRS could implement bidirectional traceability using existing
        manual processes.
Recommendation 2: The Chief Information Officer should ensure the detailed guidance7
currently being developed by the IRS Business Rules and Requirements Management office
includes specifics about how projects should maintain and report bidirectional traceability, to
ensure traceability is complete and consistent for all projects.
        Management’s Response: The Chief Information Officer agreed with this
        recommendation and plans for the Business Rules and Requirements Management office
        to review the guidance developed as a part of Highest Priority Initiative-55 and in
        response to the Government Accountability Office’s audit to ensure proper information is
        included to help projects understand how to perform bidirectional traceability. The
        Business Rules and Requirements Management office will document its findings from
        this review.




7
 Applications Development/Enterprise Services organizations’ Highest Priority Initiative-55, Implement Best
Practices for Requirements Development and Management, dated March 7, 2007.
                                                                                                          Page 5
                                 The Modernized e-File Project Can Improve Its
                                        Management of Requirements



                                                                                        Appendix I

           Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to assess the accuracy and completeness of data
processed by the Modernized e-File system and to review project development practices to
ensure the Modernized e-File Project (hereafter referred to as the Project)1 is providing the
intended benefits to the IRS and taxpayers. This review was part of our Fiscal Year 2006 audit
plan for reviews of the IRS’ Business Systems Modernization efforts. To accomplish these
objectives, we:
I.         Determined whether the information received by the Modernized e-File system
           Modernized Tax Return Database was properly reflected in the tax return information in
           the IRS Business Master File.
           A. Compared the tax return information from the electronically filed tax returns received
              by the system during the period July 1 through September 30, 2006, and maintained
              in the Modernized Tax Return Database to the return data posted to the Business
              Master File.
               1. Obtained information for 128,290 tax returns electronically filed using the
                  Modernized e-File system and identified 2,724 tax returns with differences.
               2. Using a random interval selection process, selected from the 2,724 returns a
                  sample of 113 corporate and tax-exempt electronically filed returns and analyzed
                  the status of the return information as of March 27, 2007. We used random
                  sampling to ensure each account had an equal chance of being selected, which
                  enabled us to obtain sufficient evidence to support our results.
           B. Interviewed staff from the Project, the Electronic Tax Administration office, and the
              Tax Exempt and Government Entities Division to determine why there were
              differences in data posted to the Modernized Tax Return Database and the
              information recorded in the Business Master File.
II.        Determined whether Project management documents have been updated to provide
           complete requirements traceability (i.e., tracing of a source requirement to its lower level
           requirements and from the lower level requirements to their source).
           A. Reviewed the Modernized e-File Release 4 System Integration and Test Plan
              requirements traceability verification matrices to determine whether they provided


1
    See Appendix VIII for a Glossary of Terms.
                                                                                                Page 6
                           The Modernized e-File Project Can Improve Its
                                  Management of Requirements



           traceability from the test cases to the low-level requirements and to the high-level
           requirements in the System Requirements Report.
       B. Determined how many Modernized e-File Release 4 low- and high-level requirements
          were not adequately traced in the requirements documentation.
III.   Determined the status of the lessons learned issues that resulted from the problems
       identified during the March 2006 peak processing period.
       A. Identified the status of the 88 lessons learned listed in the “Modernized e-File
          March 2006 Peak Lessons Learned” spreadsheet.
           1. Reviewed actions taken concerning the 28 lessons learned for which the Project
              team contracted for reviews of the application programming.
           2. Reviewed actions taken concerning the 23 lessons learned that the Project team
              initially planned to implement by the end of January 2007.
       B. Reviewed documentation to support the closure of corrective actions for the lessons
          learned. We did not review the remaining 37 of 88 lessons learned because planned
          corrective actions had not yet been established or were scheduled for implementation
          in future Modernized e-File system releases.

Validity and reliability of data from computer-based systems
We obtained corporate and tax-exempt organization tax return data processed by the Modernized
e-File system and stored on the Modernized Tax Return Database. We compared these data to
information processed and stored in the Business Master File. We used the tax return
identification number, called the document locator number, as the control to validate the
accuracy of the matching of the tax return information stored on the Modernized Tax Return
Database and the Business Master File. Our reviews found the data were sufficiently reliable to
perform our audit analyses.




                                                                                             Page 7
                         The Modernized e-File Project Can Improve Its
                                Management of Requirements



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Edward A. Neuwirth, Audit Manager
Michael A. Garcia, Senior Auditor
Paul M. Mitchell, Senior Auditor
Beverly Tamanaha, Senior Auditor
Louis V. Zullo, Senior Auditor
Perrin Gleaton, Auditor
Robert Carpenter, Senior Information Technology Specialist
Arlene Feskanich, Senior Information Technology Specialist




                                                                                         Page 8
                        The Modernized e-File Project Can Improve Its
                               Management of Requirements



                                                                         Appendix III

                        Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Applications Development OS:CIO:AD
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Director, Stakeholder Management OS:CIO:SM
Deputy Associate Chief Information Officer, Applications Development OS:CIO:AD
Deputy Associate Chief Information Officer, Business Integration OS:CIO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:ES:SI
Director, Test, Assurance, and Documentation OS:CIO:AD:TAD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CIO:AD
       Director, Program Oversight OS:CIO:SM:PO




                                                                                 Page 9
                            The Modernized e-File Project Can Improve Its
                                   Management of Requirements



                                                                                               Appendix IV

     Modernized e-File System Release 4 Requirements
         Not Included in Testing Documentation

Table 1 provides the Modernized e-File System Requirements Report Release 4 high-level
requirements not included in the requirements traceability verification matrices used for
Release 4 testing activities.
 Table 1: Modernized e-File System Requirements Report High-Level Release 4
Requirements Not Included in the Requirements Traceability Verification Matrices
         System                         Requirement Text                              Test Case Numbers
      Requirements                                                                     Provided by the
         Report                                                                       Modernized e-File
      Requirement                                                                       Project Team
        Number
1.      MeFB4.12      Browse all Partner’s Share of Income, Deductions, Credits,      UC30_MeF_2006
                      etc. (Schedule K-1) associated with a U.S. Return of
                      Partnership Income (Form 1065) or U.S. Return of Income
                      for Electing Large Partnerships (Form 1065-B) when the
                      number of Schedules K-1 exceeds the threshold available
                      for display.

2.      MeFB4.13      While in browse mode, provide functionality of a next and       UC30_MeF_2006
                      previous button to view all Schedules K-1.

3.      MeFB4.3.1     The Modernized e-File System shall accept Forms 1065 and        UC1_MTRDB_2006
                      1065-B and all associated forms and schedules from
                      external stakeholders.

4.      MeFB4.3.14    The Modernized e-File system shall provide to the               UC33_MTRDB_2006,
                      authorized return, request, or display user all functionality   UC34_MTRDB_2006,
                      for Forms 1065 and 1065-B that are available for the U.S.       UC30_MeF_2006
                      Corporation Income Tax Return (Form 1120) and U.S.
                      Income Tax Return for an S Corporation (Form 1120S).

5.      MeFB4.3.18    The Modernized e-File system shall provide Forms 1065           UC8_MeF_2006,
                      and 1065-B and all associated forms and schedules with the      UC12_MeF_2006
                      same functionality for Interface, Data Reliability, Security,
                      Maintainability, Capacity, Availability, Performance, and
                      Testability currently used by Forms 1120 and 1120S.

6.      MeFB4.3.4     The Modernized e-File system shall create and return to the     UC2_MTRDB_2006
                      transmitter Acknowledgment Files that contain records with
                      the status (acceptance or rejection) of transmissions and
                      returns for Forms 1065 and 1065-B.


                                                                                                         Page 10
                               The Modernized e-File Project Can Improve Its
                                      Management of Requirements



         System                           Requirement Text                            Test Case Numbers
      Requirements                                                                     Provided by the
         Report                                                                       Modernized e-File
      Requirement                                                                       Project Team
        Number
 7.       MeFB4.3.5       The Modernized e-File system shall provide validation       UC3_MTRDB_2006
                          against incoming external interfaces.

 8.       MeFB4.3.7       The Modernized e-File system shall generate codes for all   UC6_MTRDB_2006
                          accepted Forms 1065 and 1065-B based on rules provided.

 9.       MeFB4.3.8       The Modernized e-File system shall output data on all       UC8_MeF_2006,
                          accepted Forms 1065 and 1065-B for Generalized Mainline     UC12_MeF_2006
                          Framework, end-of-day, and Electronic Federal Tax
                          Payment System processing.

Source: Modernized e-File Release 4 System Requirements Report, Requirements Traceability Verification
Matrices, and responses provided by the Project team. MTRDB = Modernized Tax Return Database.




                                                                                                         Page 11
                           The Modernized e-File Project Can Improve Its
                                  Management of Requirements



                                                                                  Appendix V

                    Enterprise Life Cycle Overview

The Enterprise Life Cycle is the IRS’ standard approach to business change and information
systems initiatives. It is a collection of program and project management best practices designed
to manage business change in a successful and repeatable manner. The Enterprise Life Cycle
addresses large and small projects developed internally and by contractors.
The Enterprise Life Cycle includes such requirements as:
   •   Development of and conformance to an enterprise architecture.
   •   Improving business processes prior to automation.
   •   Use of prototyping and commercial software, where possible.
   •   Obtaining early benefit by implementing solutions in multiple releases.
   •   Financial justification, budgeting, and reporting of project status.
In addition, the Enterprise Life Cycle improves the IRS’ ability to manage changes to the
enterprise; estimate the cost of changes; and engineer, develop, and maintain systems effectively.
Figure 1 provides an overview of the layers, paths, phases, and milestones (shown as “MS” in
Figure 1) within the Enterprise Life Cycle Framework.




                                                                                          Page 12
                                                           The Modernized e-File Project Can Improve Its
                                                                  Management of Requirements



                                                     Figure 1: Enterprise Life Cycle Framework
  Governance Management




                                                                                            Acquisition Management
                Layer




                                                                                             Program Management

                                                                                      Implementation Project Management
    Layer




                                                           MS0               MS1                MS2             MS3              MS4A         MS4B                MS5


                          Large Custom Path
                          Small Custom Path
  Solution Life Cycle




                          Commercial-Off-the-
                          Shelf Path             Vision and
                                                 Strategy /                           Domain                                          System           System       Operations and
         Layer




                          Joint Application                         Project                         Preliminary Detailed Design
                                                 Enterprise                         Architecture                                    Development      Deployment      Maintenance
                          Development /                        Initiation Phase                    Design Phase     Phase
                                                Architecture                           Phase                                           Phase           Phase            Phase
                          Rapid Application
                                                   Phase
                          Development Path
                          Iterative Custom
                          Path
  Methodology Solution




                                                Various Work    Various Work       Various Work    Various Work    Various Work     Various Work   Various Work
               Layer




                                                Products and    Products and       Products and    Products and    Products and     Products and   Products and
                                                  Reviews         Reviews            Reviews         Reviews         Reviews          Reviews        Reviews
     Layer




                                                                      Developer's Business Change or System Change Methodology



                                                                                  Enterprise Integration, Test, and Evaluation
  Specialty Areas




                                                                                  Business Rules Harvesting and Management
                                                                                             Transition Management
      Layer




                                                                                             Enterprise Architecture
                                                                                    Capital Planning and Investment Control
                                                                                              Security and Privacy
                                                                                  Requirements Development and Management

Source: Graphical representation of the Enterprise Life Cycle Framework modified from the Enterprise Life Cycle
Guide.

Enterprise Life Cycle Layers
The Enterprise Life Cycle is a framework for organizing and using IRS directives, processes,
procedures, templates, and standards to accomplish business change. It is organized as a set of
six interacting layers.
           •               The Management Layer specifies how to plan and control business change programs,
                           projects, acquisitions, and solutions throughout the Enterprise Life Cycle.
           •               The Governance Layer specifies additional controls imposed from outside the project or
                           program.
           •               The Solution Life Cycle Layer specifies what should be done but not how to do it.
           •               The Solution Layer manages the solution as it is produced, including providing
                           standards for consistent solution specification and formal review of solution content.
                           This Layer provides control over work products that may be produced by multiple
                           internal and external developers using differing methodologies.

                                                                                                                                                                        Page 13
                            The Modernized e-File Project Can Improve Its
                                   Management of Requirements



   •   The Methodology Layer details how to do the work and specifies a unique set of work
       products to be produced. Specific methodologies are not part of the Enterprise Life Cycle
       Framework.
   •   The Specialty Areas Layer provides additional guidance for areas of particular
       importance within the IRS. These areas include Enterprise Integration, Test, and
       Evaluation; Business Rules Harvesting and Management; Transition Management;
       Enterprise Architecture; Capital Planning and Investment Control; Security and Privacy;
       Requirements Development and Management.

Enterprise Life Cycle Paths
A path specifies a unique “philosophy” or orientation for performing the work. Although the
Enterprise Life Cycle specifies a standard for the work required to produce and operate business
change solutions, there are multiple ways to approach and accomplish the required work. Paths
are like alternate roads, each of which crosses different terrain, but all of which lead to the same
destination. The Enterprise Life Cycle provides five distinct paths or approaches to developing
systems:
   •   The Large Custom Path is for large projects.
   •   The Small Custom Path is for small projects.
   •   The Commercial-Off-the-Shelf Path is a commercial software-based approach.
   •   The Joint Application Development/Rapid Application Development Path is a highly
       accelerated, prototyping-based approach for very small, standalone solutions or solution
       components.
   •   The Iterative Custom Path is a hybrid approach that combines elements of the other
       approaches.

Enterprise Life Cycle Phases and Milestones
A phase is a broad segment of work encompassing activities of similar scope, nature, and detail
and providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting
and ends with an executive management decision point (called a milestone) at which IRS
executives make “go/no-go” decisions for continuation of a project. Development project
funding decisions are often associated with milestones.




                                                                                             Page 14
                                 The Modernized e-File Project Can Improve Its
                                        Management of Requirements



                  Figure 2: Enterprise Life Cycle Phases and Milestones
                                                     General Nature                       Concluding
              Phase                                      of Work                           Milestone
 Vision and Strategy/             High-level direction setting. This is the only phase
                                                                                              0
 Enterprise Architecture Phase    for enterprise planning projects.
 Project Initiation Phase         Startup of development projects.                            1
 Domain Architecture Phase        Specification of the operating concept, requirements,
                                                                                              2
                                  and structure of the solution.
 Preliminary Design Phase         Preliminary design of all solution components.              3
 Detailed Design Phase            Detailed design of solution components.                    4A
 System Development Phase         Coding, integration, testing, and certification of
                                                                                             4B
                                  solutions.
 System Deployment Phase          Expanding availability of the solution to all target
                                  users. This is usually the last phase for development       5
                                  projects.
 Operations and Maintenance       Ongoing management of operational systems.               System
 Phase                                                                                    Retirement
Source: The Enterprise Life Cycle Guide.




                                                                                                       Page 15
           The Modernized e-File Project Can Improve Its
                  Management of Requirements



                                                    Appendix VI

Memorandum #1: Additional Actions Should Be
 Taken to Adequately Complete Requirements
 Traceability for the Modernized e-File Project




                                                           Page 16
The Modernized e-File Project Can Improve Its
       Management of Requirements




                                                Page 17
The Modernized e-File Project Can Improve Its
       Management of Requirements




                                                Page 18
                          The Modernized e-File Project Can Improve Its
                                 Management of Requirements



                                                                     Appendix VII

       Management’s Response to Memorandum #1

From: DeMarino Frank [mailto:Frank.DeMarino@irs.gov]
Sent: Monday, December 04, 2006 5:54 AM
To: Hinkle Gary V TIGTA; Neuwirth Edward A TIGTA
Cc: Nesbit Sr Kenneth W; Mullins Carol M
Subject: TIGTA memo Dated November 22, 2006

The MeF Project Management concurs with the memo "Additional Actions Should Be
Taken to Adequately Complete Requirements Traceability for the Modernized e-File
Project (Audit #200720002)" dated November 22, 2006.

Thank you for your consideration of this matter.
Frank DeMarino
Program Oversight and Coordination Office
OS:CIO:SM:PO
B7-133
202-283-5761




                                                                             Page 19
                       The Modernized e-File Project Can Improve Its
                              Management of Requirements



                                                                      Appendix VIII

                             Glossary of Terms

Term                                    Definition
Bidirectional Traceability              Bidirectional traceability of requirements
                                        can be established from the source
                                        requirement to its lower level requirements
                                        and from the lower level requirements back
                                        to their source. Such bidirectional
                                        traceability helps determine that all source
                                        requirements have been completely
                                        addressed and that all lower level
                                        requirements can be traced to a valid
                                        source.
Business Master File                    The Business Master File is the IRS
                                        database that consists of Federal tax-related
                                        transactions and accounts for businesses.
                                        These include employment taxes, income
                                        taxes on businesses, and excise taxes.
Business Systems Modernization          The Business Systems Modernization
                                        program, which began in 1999, is a
                                        complex effort to modernize the IRS’
                                        technology and related business processes.
Deferral                                A deferral is an approved request for
                                        verification of a requirement or set of
                                        requirements to be moved to another phase
                                        of testing.
Electronic Federal Tax Payment System   The Electronic Federal Tax Payment
                                        System was designed to process Federal
                                        tax deposits and all other types of business
                                        and individual payments.




                                                                                Page 20
                        The Modernized e-File Project Can Improve Its
                               Management of Requirements




Term                                       Definition
Electronic Management System               The Electronic Management System
                                           provides telecommunication structure,
                                           security, and data management support for
                                           electronic commerce, including electronic
                                           filing of tax returns.
Enterprise Life Cycle                      The Enterprise Life Cycle is a structured
                                           business systems development method that
                                           requires the preparation of specific work
                                           products during different phases of the
                                           development process.
Error Resolution System                    The Error Resolution System application
                                           provides for the correction of errors
                                           associated with input submissions. The
                                           error inventory is managed on an Error
                                           Resolution System database, and corrected
                                           documents are validated by the Generalized
                                           Mainline Framework system.

Federal/State Single Point Filing System   The Federal/State Single Point Filing
                                           System permits tax return transmitters to
                                           submit multiple Federal and State tax
                                           return types within one transmission and to
                                           receive acknowledgement of the
                                           transmission from the IRS.
Generalized Mainline Framework             The Generalized Mainline Framework
                                           system validates and perfects data from a
                                           variety of input sources (e.g., tax returns,
                                           remittances, information returns, and
                                           adjustments) and controls, validates, and
                                           corrects updated transactions.
Generalized Unpostable Framework           The Generalized Unpostable Framework
                                           application consists of a group of batch
                                           programs and real-time command codes
                                           used to correct transactions that do not
                                           meet Master File posting criteria. It
                                           controls, validates, and corrects
                                           transactions through the Generalized
                                           Mainline Framework system.

                                                                                     Page 21
                      The Modernized e-File Project Can Improve Its
                             Management of Requirements




Term                                   Definition
Information Technology Modernization   The Information Technology
Vision and Strategy                    Modernization Vision and Strategy
                                       establishes a 5-year plan that drives
                                       investment decisions; addresses the
                                       priorities around modernizing front-line tax
                                       administration and supporting technical
                                       capabilities; and leverages existing systems
                                       (where possible) and new development
                                       (where necessary) to optimize capacity,
                                       manage program costs, and deliver
                                       business value on a more incremental and
                                       frequent basis.
Master File                            The Master File is the IRS database that
                                       stores various types of taxpayer account
                                       information. This database includes
                                       individual, business, and employee plans
                                       and exempt organizations data.
Milestone                              A milestone provides for “go/no-go”
                                       decision points in a project and is
                                       sometimes associated with funding
                                       approval to proceed.
Modernized e-File Project              The Modernized e-File Project develops
                                       the modernized, web-based platform for
                                       the filing of approximately 330 IRS forms
                                       electronically, beginning with the
                                       U.S. Corporation Income Tax Return
                                       (Form 1120), U.S. Income Tax Return for
                                       an S Corporation (Form 1120S), and
                                       Return of Organization Exempt From
                                       Income Tax (Form 990). The Project
                                       serves to streamline filing processes and
                                       reduce the costs associated with a
                                       paper-based process.
Modernized Tax Return Database         The Modernized Tax Return Database is
                                       the legal repository for original
                                       electronically filed returns received by the
                                       IRS through the Modernized e-File system.

                                                                               Page 22
                      The Modernized e-File Project Can Improve Its
                             Management of Requirements




Term                                          Definition
Platform                                      A platform is a computer system on which
                                              application programs can run.
Release                                       A release is a specific edition of software.
Requirement                                   A requirement is a formalization of a need
                                              and is the statement of a capability or
                                              condition that a system, subsystem, or
                                              system component must have or meet to
                                              satisfy a contract, standard, or
                                              specification.
Software Engineering Institute’s Capability   The Software Engineering Institute’s
Maturity Model Integration                    Capability Maturity Model Integration is a
                                              process improvement approach that
                                              provides organizations with the essential
                                              elements of effective processes.
System Integration and Testing                System Integration and Testing verifies that
                                              each individual work product (such as
                                              application software, technical
                                              infrastructure, facility, documentation, or
                                              training material) still meets requirements
                                              when integrated with the rest of the release
                                              and the business system.




                                                                                       Page 23
         The Modernized e-File Project Can Improve Its
                Management of Requirements



                                                  Appendix IX

Management’s Response to the Draft Report




                                                         Page 24
The Modernized e-File Project Can Improve Its
       Management of Requirements




                                                Page 25
